TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Collection Employees Adhered to Fair
                           Tax Collection Practices in
                               Calendar Year 2008



                                           July 23, 2009

                              Reference Number: 2009-10-101




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 23, 2009


 MEMORANDUM FOR CHIEF COUNSEL
                IRS CHIEF HUMAN CAPITAL OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Collection Employees Adhered to Fair Tax
                                Collection Practices in Calendar Year 2008 (Audit # 200910016)

 This report presents the results of our review of Fair Tax Collection Practices (FTCP)1 violations
 for Calendar Year 2008. The overall objective of this review was to obtain information on
 Internal Revenue Service (IRS) administrative or civil actions resulting from FTCP violations by
 IRS employees. Section 1102 (d)(1)(G) of the IRS Restructuring and Reform Act of 19982
 requires the Treasury Inspector General for Tax Administration to include in one of its
 Semiannual Reports to Congress information regarding administrative or civil actions related to
 FTCP violations. This audit was conducted as part of the Treasury Inspector General for Tax
 Administration Office of Audit Fiscal Year 2009 Annual Audit Plan related to the major
 management challenge of Taxpayer Protection and Rights.

 Impact on the Taxpayer
 The abuse or harassment of taxpayers by IRS employees while attempting to collect taxes
 reflects poorly on the IRS and can have a negative impact on voluntary compliance and result in
 civil damages against the Government when FTCP are violated. For Calendar Year 2008, there
 were no cases involving FTCP violations for which an employee received administrative
 disciplinary action and there were no taxpayers who received civil damages for an FTCP
 violation. As a result, taxpayers have reasonable assurance that communications with the IRS in
 connection with the collection of unpaid taxes generally did not violate the FTCP statute.



 1
     26 U.S.C. Section 6304 (2007). See Appendix V for an explanation of FTCP provisions.
 2
     Pub. L. No. 105-206, 112 Stat. 702-703.
                                    Collection Employees Adhered to
                           Fair Tax Collection Practices in Calendar Year 2008




Synopsis
The FTCP provisions of Internal Revenue Code Section 6304 prohibit employees from using
abusive or harassing behavior toward taxpayers when attempting to collect taxes. Employees
who are found to have violated the FTCP statute could be subject to disciplinary action. In
Calendar Year 2008, IRS employees in the collection-related jobs series committed only
one potential violation of the FTCP statute. Initially, the IRS coded two cases as
FTCP violations. In the first case, the action taken by management was considered a lesser
action and did not qualify as an administrative action. The other case was improperly coded as
an FTCP violation and should not have been because it did not involve an employee in a
collection-related job series. During the audit, we recommended the miscoding in the second
case be corrected and the IRS corrected the miscoding. In addition, there were no civil actions
resulting in monetary awards being paid to taxpayers because of an FTCP violation.
It is important that FTCP violations information be accurate since it is needed by
IRS management to detect any problems or trends that might exist and properly address them to
minimize negative interactions between IRS employees and taxpayers. In our previous reports,
we had noted the miscoding of a significant number of cases. For example, we determined that
13 cases were miscoded in Calendar Year 2007.3 As a result, we previously recommended that
improvements be made to ensure that cases are coded correctly. To determine if the IRS had
made improvements, we reviewed 498 cases in 6 “other case” categories to determine whether
there were other instances of FTCP violations that were coded incorrectly. Our review
determined that the IRS had improved its practices because no additional cases were identified
that should have been coded as FTCP violations.

Recommendations
We made no recommendations in this report. However, key IRS management officials reviewed
the report prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Management Services and Exempt Organizations), at
(202) 622-8500.




3
 Five Fair Tax Collection Practices Violations Resulted in Administrative Actions in Calendar Year 2007
(Reference Number 2008-10-162, dated September 5, 2008).
                                                                                                          2
                                         Collection Employees Adhered to
                                Fair Tax Collection Practices in Calendar Year 2008




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          No Fair Tax Collection Practices Violations Resulted in Administrative
          Actions to Employees ...................................................................................Page 3
          No Fair Tax Collection Practices Violations Resulted in Civil Damages
          (Monetary Awards) to Taxpayers .................................................................Page 3
          The Internal Revenue Service Substantially Reduced the Number of
          Cases Miscoded on the Automated Labor and Employee Relations
          Tracking System ...........................................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Outcome Measure ................................................................Page 9
          Appendix V – Fair Tax Collection Practices Provisions ..............................Page 10
          Appendix VI – Fair Tax Collection Practices Violation Issue Codes ..........Page 11
                  Collection Employees Adhered to
         Fair Tax Collection Practices in Calendar Year 2008




                   Abbreviations

ALERTS       Automated Labor and Employee Relations Tracking System
FTCP         Fair Tax Collection Practices
IRS          Internal Revenue Service
                                   Collection Employees Adhered to
                          Fair Tax Collection Practices in Calendar Year 2008




                                          Background

Section (§) 1102 (d)(1)(G) of the Internal Revenue Service (IRS) Restructuring and Reform Act
of 19981 requires that the Treasury Inspector General for Tax Administration include in one of its
Semiannual Reports to Congress information regarding any administrative or civil actions related
to violations of the Fair Tax Collection Practices (FTCP) listed in 26 U.S.C. § 6304.2 The
Treasury Inspector General for Tax Administration’s Semiannual Report to Congress must
provide a summary of such actions and include any judgments or awards granted.
The abuse or harassment of taxpayers by IRS employees while attempting to collect taxes
reflects poorly on the IRS and can have a negative impact on voluntary compliance. As
originally enacted, the Fair Debt Collection Practices Act3 included provisions that prohibit
various collection abuses and harassment in the private sector. The restrictions do not apply to
Federal Government practices. However, Congress believes that it is appropriate to require the
IRS to comply with applicable portions of the Fair Debt Collection Practices Act and to be at
least as considerate to taxpayers as private creditors are required to be with their customers.
IRS Restructuring and Reform Act of 1998 § 34664 requires that the IRS follow
FTCP provisions5 that are similar to the Fair Debt Collection Practices Act provisions.
Taxpayer complaints regarding IRS employees’ conduct can be reported to several
IRS divisions6 for tracking. If a taxpayer files a civil action, or if IRS management determines
that a taxpayer’s rights related to the FTCP might have been violated, the complaint may be
referred and tracked on one or both of the following IRS systems:
    •   The IRS Chief Human Capital Officer Workforce Relations Automated Labor and
        Employee Relations Tracking System (ALERTS) generally tracks employee behavior
        that might warrant IRS management administrative actions.
    •   The Office of Chief Counsel Counsel Automated System Environment is an inventory
        control system that tracks items such as taxpayer civil actions.
The IRS began tracking FTCP codes on the ALERTS in March 19997 and on the Counsel
Automated System Environment in June 1999. For this review, we analyzed closed cases for

1
  Pub. L. No. 105-206, 112 Stat 702-703.
2
  26 U.S.C. § 6304 (2007).
3
  15 U.S.C. §§ 1601 note, 1692-1692p (2006).
4
  Pub. L. No. 105-206, 112 Stat 768-769.
5
  See Appendix V for a detailed description of FTCP provisions.
6
  The IRS divisions are the Large and Mid-Size Business, Small Business/Self-Employed, Tax Exempt and
Government Entities, and Wage and Investment Divisions.
7
  See Appendix VI for a description of the ALERTS FTCP violation codes.
                                                                                                        Page 1
                                 Collection Employees Adhered to
                        Fair Tax Collection Practices in Calendar Year 2008



Calendar Year 2008 from the ALERTS to identify violations of the FTCP. To be an
FTCP violation that the Treasury Inspector General for Tax Administration is required to report,
the action must have been taken by an IRS employee who was involved in a collection activity
and who received a disciplinary action that is considered an administrative action. We
determined that usually only those employees in the job series listed below will be engaged in
collection-related activities:
   •   Tax Specialist – Job Series 0526.
   •   Tax Examiner – Job Series 0592.
   •   Contact Representative – Job Series 0962.
   •   Revenue Officer – Job Series 1169.
The law does not provide a definition of “administrative action.” We used the IRS’ definition of
a disciplinary action when determining the number of violations to report under
IRS Restructuring and Reform Act of 1998 § 1102 (d)(1)(G). As defined by the IRS,
disciplinary actions range from a letter of admonishment through removal.
We could not ensure that the cases recorded on the ALERTS constitute all FTCP violations. The
ALERTS tracks disciplinary actions taken against employees due to improper conduct. Lesser
actions, such as oral or written counseling, are not considered to be disciplinary actions under the
IRS’ definition. Because the IRS does not routinely track all informal oral counseling or minor
actions against its employees, it is not possible for us to determine how often, or why, informal
oral counseling or other minor disciplinary actions occurred. The scope of our audit was not
intended to determine the accuracy or consistency of disciplinary actions taken against
employees.
This review was performed at the offices of the IRS Chief Human Capital Officer and the Chief
Counsel in the IRS National Headquarters in Washington, D.C., during the period
February through May 2009. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                             Page 2
                                    Collection Employees Adhered to
                           Fair Tax Collection Practices in Calendar Year 2008




                                      Results of Review

No Fair Tax Collection Practices Violations Resulted in Administrative
Actions to Employees
Our audit concluded that IRS employees received no administrative actions as a result of
FTCP violations. As such, taxpayers have reasonable assurance that communications with the
IRS in connection with the collection of unpaid taxes generally did not violate the FTCP statute.
While two cases were initially coded as FTCP violation complaints and closed on the ALERTS
from January 1 through December 31, 2008,81we reviewed the cases and determined that only
one potential FTCP violation had occurred. Upon reviewing the potential FTCP violation, we
found that management disposed of this case with a lesser action that did not qualify as
administrative action to the employee. The second case was miscoded on the ALERTS and was
not an FTCP violation because it did not involve an employee in a collection-related jobs series.
During the audit, we recommended that the miscoding be corrected and the Workforce Relations
function staff corrected the miscoding by amending the second case to reflect the appropriate
issue code instead of the FTCP violation issue code.92

No Fair Tax Collection Practices Violations Resulted in Civil Damages
(Monetary Awards) to Taxpayers
Section 7433 of the Internal Revenue Code provides that a taxpayer may bring a civil action for
damages against the Federal Government if an officer or employee of the IRS recklessly,
intentionally, or by reason of negligence, disregards any provision of the Internal Revenue Code,
or related regulation, in connection with the collection of Federal tax.
There were no cases closed on the Counsel Automated System Environment in Calendar
Year 2008 for which the IRS paid civil damages to taxpayers resulting from an FTCP violation.




8
  This included cases opened after July 22, 1998, and closed during the period January 1 through
December 31, 2008.
9
  See Appendix IV for additional details.
                                                                                                   Page 3
                                   Collection Employees Adhered to
                          Fair Tax Collection Practices in Calendar Year 2008



The Internal Revenue Service Substantially Reduced the Number of
Cases Miscoded on the Automated Labor and Employee Relations
Tracking System
It is important that ALERTS data be accurate since they are needed by IRS management to
detect any problems or trends that might exist and properly address them to minimize poor
interactions between IRS employees and taxpayers. The ALERTS is also the data source for
reports provided to a number of oversight offices and at times is the basis for information
provided to Congress on legislation affecting the IRS.
In our previous reports, we had noted that a significant number of cases were miscoded on the
ALERTS. For example, our review of records on the ALERTS for our last FTCP violations
audit found 13 cases that were miscoded.103 As a result, we recommended that improvements be
made to ensure that cases are coded correctly. In addressing our prior recommendation,
IRS management agreed to initiate a quarterly review of the ALERTS to validate the use of
FTCP violation issue codes as a temporary measure until programming could be completed on a
hard-code validation114to the ALERTS.125 According to Workforce Relations function staff, a
manual validation review of the ALERTS was performed in December 2008. The hard-code
validation of FTCP violation issue codes was implemented in January 2009.
There are two types of miscoding errors that we have noted in the past: 1) cases that were coded
as FTCP violation cases, but should not have been coded as such; and 2) cases that were not
coded as FTCP violation cases, but should have been coded as FTCP violation cases. As
mentioned previously, we identified one case in our current audit that was incorrectly coded as
an FTCP violation case. To determine if the IRS incorrectly used other codes that should have
been identified as FTCP violation cases, we reviewed 498 cases on the ALERTS in 6 “other
case” categories involving employee misconduct allegations, including those coded as either
“Unprofessional Conduct” or “Not Otherwise Coded.” Our review did not identify any
additional cases that should have been coded as an FTCP violation.
While we did identify one miscoded case, IRS actions have ensured that miscoding was kept to a
minimum in Calendar Year 2008. In addition, the Workforce Relations function staff was
confident that the new, hard-code validation would prevent the miscoded case we identified from
being entered into the ALERTS in the future because the hard-code validation requires the issue
code, affected party code, and job series code to meet FTCP violation criteria.

10
   Five Fair Tax Collection Practices Violations Resulted in Administrative Actions in Calendar Year 2007
(Reference Number 2008-10-162, dated September 5, 2008).
11
   An enhancement to an ALERTS software program that only allows FTCP violation issue codes for cases where
the affected party was a taxpayer/taxpayer representative and where the case involved an employee performing
specific collection-related activities.
12
   Five Fair Tax Collection Practices Violations Resulted in Administrative Actions in Calendar Year 2006
(Reference Number 2007-10-188, dated September 21, 2007).
                                                                                                       Page 4
                                    Collection Employees Adhered to
                           Fair Tax Collection Practices in Calendar Year 2008



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to obtain information on IRS administrative or civil actions
resulting from FTCP violations1 by IRS employees. To accomplish the objective, we:
I.      Identified the number of FTCP violations resulting in administrative actions.
        A. Obtained from the ALERTS2 a computer extract of any cases opened after
           July 22, 1998,3 with an Issue Code of 141 to 1474 and closed during the period January 1
           through December 31, 2008.
        B. Determined whether any cases involving FTCP violations resulted in administrative
           actions.
        C. Obtained from the ALERTS a computer extract of 1,151 cases opened after
           July 22, 1998, and closed during the period January 1 through December 31, 2008, with
           the following Issue Codes:
             •   013 (Position/Authority Misuse - limited to only those closed with a disposition
                 code of 009 or higher).
             •   020 (Fighting, Assaults, and Threats - limited to only those closed with a
                 disposition code of 009 or higher).
             •   058 (Unprofessional Conduct - limited to only those closed with a disposition
                 code of 009 or higher).
             •   114 (Conviction Assault/Battery - all disposition codes).
             •   119 (Threat of Audit/Personal - all disposition codes).
             •   999 (Not Otherwise Coded - limited to only those closed with a disposition code
                 of 008 or higher).



1
  26 U.S.C. Section 6304 (2007). See Appendix V for an explanation of FTCP provisions.
2
  The Office of Workforce Relations ALERTS generally tracks employee behavior that might warrant
IRS management disciplinary actions.
3
  The Act requiring the Treasury Inspector General for Tax Administration to include in one of its Semiannual
Reports to Congress information regarding administrative or civil actions related to FTCP violations became Public
Law on July 22, 1998.
4
  See Appendix VI for a description of these Codes.
                                                                                                           Page 5
                                    Collection Employees Adhered to
                           Fair Tax Collection Practices in Calendar Year 2008



        D. Analyzed the ALERTS extract and determined whether any of the cases in these
           categories were miscoded and should have been coded as FTCP violations. We did not
           attempt to independently validate the accuracy of the ALERTS for this review. We
           limited our work to assessing the accuracy of the Issue Codes for those cases that met
           the criteria listed in Steps I.A through I.C.
        E. Assessed the use of quarterly reviews and hard-code validations5 of the ALERTS to
           correct any cases that were miscoded as FTCP violations when entered into the
           ALERTS. We obtained documentation of the hard-code validations and reviewed the
           ALERTS FTCP violation extracts for Calendar Years 2007 and 2008 to ensure cases
           identified with FTCP violation issue codes were all FTCP violations.
II.     Determined there were no FTCP violation cases (Subcategory 6304, established to track
        FTCP violations) resulting in IRS civil actions (judgments or awards granted) on the
        Office of Chief Counsel Counsel Automated System Environment6 database that had
        been opened after July 22, 1998, and closed during the period January 1 through
        December 31, 2008. Due to time constraints, we did not conduct validation tests of this
        System. The Calendar Year 2008 data were consistent with those of past years, and there
        is less risk that cases were misclassified because qualified attorneys were deciding if each
        case met the legal definition of an FTCP violation. For these reasons, we considered the
        reliability of the data undetermined but suitable for use in this report.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. While the scope of this audit
was generally limited to providing information on FTCP violations documented within
IRS systems, we also determined whether corrective action taken based on a prior
recommendation was adequate to improve the coding of FTCP violation cases. For this part of
our audit, we determined that internal controls related to reliability of information were relevant
to our audit objective. We evaluated these controls by interviewing management, reviewing
applicable system information, and assessing whether information on these systems was
validated appropriately.




5
  An enhancement to an ALERTS software program that only allows FTCP violation issue codes for cases where the
affected party was a taxpayer/taxpayer representative and where the case involved an employee performing specific
collection-related activities.
6
  The Counsel Automated System Environment is an Office of Chief Counsel inventory control system that tracks
items such as taxpayer civil actions.
                                                                                                         Page 6
                              Collection Employees Adhered to
                     Fair Tax Collection Practices in Calendar Year 2008



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Donald J. Martineau, Lead Auditor
Deadra M. English, Senior Auditor
Carol A. Rowland, Auditor




                                                                                   Page 7
                              Collection Employees Adhered to
                     Fair Tax Collection Practices in Calendar Year 2008



                                                                         Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Workforce Relations, IRS Chief Human Capital Officer OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief Counsel CC
                 IRS Chief Human Capital Officer OS:HCO




                                                                                Page 8
                                    Collection Employees Adhered to
                           Fair Tax Collection Practices in Calendar Year 2008



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; one ALERTS1 record (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed the two FTCP violation complaints closed on the ALERTS from January 1 through
December 31, 2008, and determined that one of the cases was coded as an FTCP violation but
should not have been because the case did not involve an employee in the collection-related jobs
series.2




1
  The Office of Workforce Relations ALERTS generally tracks employee behavior that may warrant
IRS management disciplinary actions.
2
  Tax Specialist – Job Series 0526; Tax Examiner – Job Series 0592; Contact Representative – Job Series 0962;
Revenue Officer – Job Series 1169.
                                                                                                          Page 9
                                     Collection Employees Adhered to
                            Fair Tax Collection Practices in Calendar Year 2008



                                                                                                  Appendix V

              Fair Tax Collection Practices Provisions

To ensure equitable treatment of debt collectors in the public and private sectors, the
IRS Restructuring and Reform Act of 19981 requires the IRS to comply with certain provisions
of the Fair Debt Collection Practices Act.2 Specifically, the IRS may not communicate with
taxpayers in connection with the collection of any unpaid tax:
    •    At unusual or inconvenient times.
    •    If the IRS knows that the taxpayer has obtained representation from a person authorized
         to practice before the IRS, and the IRS knows or can easily obtain the representative’s
         name and address.
    •    At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
         communication is prohibited.
In addition, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
    •    Use or threat of violence or harm.
    •    Use of obscene or profane language.
    •    Causing a telephone to ring continuously with harassing intent.
    •    Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  15 U.S.C. Sections 1601 note, 1692-1692p (2006).
                                                                                                              Page 10
                                  Collection Employees Adhered to
                         Fair Tax Collection Practices in Calendar Year 2008



                                                                                 Appendix VI

  Fair Tax Collection Practices Violation Issue Codes

  Issue Code                                        Description
      141         UNUSUAL CONTACT WITH TAXPAYER – Contacting a taxpayer before
                  8:00 a.m. or after 9:00 p.m., or at an unusual location or time, or location
                  known or which should be known to be inconvenient to the taxpayer.
      142         DIRECT CONTACT WITH TAXPAYER WITHOUT REPRESENTATIVE
                  CONSENT – Contacting a taxpayer directly without the consent of the
                  taxpayer’s Power of Attorney.
      143         CONTACT AT TAXPAYER EMPLOYMENT WHEN PROHIBITED –
                  Contacting a taxpayer at their place of employment when it is known or should
                  be known that the taxpayer’s employer prohibits the taxpayer from receiving
                  such communication.
      144         USE/THREAT OF PHYSICAL HARM – Conduct which is intended to harass
                  or abuse a taxpayer, or conduct which uses or threatens to use violence or harm.
      145         USE OBSCENE/PROFANE LANGUAGE TO ABUSE – The use of obscene
                  or profane language toward a taxpayer.
      146         CONTINUOUS PHONE CALLS WITH INTENT TO HARASS – Causing a
                  taxpayer’s telephone to ring continuously with harassing intent.
      147         PHONE CALLS WITHOUT MAKING FULL IDENTIFICATION
                  DISCLOSURE – Contacting a taxpayer by telephone without providing a
                  meaningful disclosure of the IRS employee’s identity.
Source: IRS ALERTS User Manual (January 2008).




                                                                                          Page 11
